November 30, 2009

VINCENT H. DEVITO, JR.
VICE PRESIDENT, CONTROLLER

SUBJECT: Audit Report – Fiscal Year 2009 Postal Service Financial Statements Audit
         – Washington, D.C., Headquarters (Report Number FT-AR-10-005)

This report presents the results of our audit of selected financial activities and
accounting records at Washington, D.C., Headquarters for the fiscal year (FY) ended
September 30, 2009 (Project Number 09BM007FT000). The Postal Reorganization Act
of 1970, as amended, requires annual audits of the Postal Service’s financial
statements. We conducted this audit in support of the independent public accounting
(IPA) firm’s overall audit opinion on the Postal Service’s financial statements. This audit
addresses financial risk. See Appendix A for additional information about this audit.

Conclusion

During our audit at the Washington, D.C., Headquarters, we noted:

        Financial accounting policies and procedures provided for an adequate internal
         control structure and complied with accounting principles generally accepted in
         the U.S.

        Accounting transactions at headquarters1 impacting the general ledger (GL)
         account balances were stated in accordance with accounting principles generally
         accepted in the U.S.

        GL account balances conformed to the general classification of accounts on a
         basis consistent with that of the previous year.

        The Postal Service complied with laws and regulations that have a direct and
         material effect on the financial statements taken as a whole.

We did not propose any adjustments; however, we did follow up on a prior year finding
to assess the actions taken by the Postal Service on manual JVs.


1
 The U.S. Postal Service Office of Inspector General (OIG) and the IPA coordinate testing and review of significant
headquarters accounts and manual journal vouchers (JVs).
Fiscal Year 2009 Postal Service Financial Statements                                                        FT-AR-10-005
 Audit – Washington, D.C., Headquarters


Progress On Prior Year Finding And Observation

In each of the last 2 years, we reported that controls over JV preparation, approval, and
review needed strengthening. As shown in the following table, for FY 2009, of the 751
manual JVs reviewed, we found four instances where certain controls were not
exercised. Our review of the JVs for FY 2009 indicates a significant improvement.
However, because these controls over the JV process are considered key,2 any error
could impact the opinion of the IPA on internal controls over financial reporting in
FY 2010. The issues identified for FY 2009 were brought to the attention of Corporate
Financial Reporting, and the issues have not recurred since Quarter 2.

                                                                                                        Instances In
          Timeframe of JV – FY 2009                           Internal Control Issue
                                                                                                          FY 2008
Qtr 1        Qtr 2     Qtr 3      Qtr 4     Total

     --        --         --        --         0          No evidence of “entered by”                          1
                                                         Staff members approved JVs
     2         --         --        --         2                                                               8
                                                         prepared by their managers
     --        --         --        --         0          Some or all support missing                          2
                                                        No evidence of final approval,
     --         2         --        --         2         input into the Journal Entry                          5
                                                         Vehicle, or posted to the GL

In FYs 2008 and 2007, we observed the following two issues during our JV review that
were not part of the documented JV procedures. These are not considered key
controls; however, we presented them to management to further enhance the JV entry
process. For FY 2009, we found significant improvement.

                                                         Number of              Number of               Number of
           JV Entry Process Issue                       Instances in           Instances in            Instances in
                                                          FY 2009                FY 2008                 FY 2007
Inconsistent Evidence of Approval
for JVs that were Prepared and                                    1                    2                      14
Approved by Another Office
“Approver” and “Entered By” was
                                                                  0                    3                       2
the Same Official

Based on the actions taken by the Postal Service during FY 2009, and the fact that key
controls were effective in Quarters 3 and 4, we are not making any recommendations.

We are not making any additional recommendations in this report. As a result,
management chose not to respond formally to this report.

2
    A key control is one that is essential to providing a level of assurance that process objectives are being achieved.




                                                              2
Fiscal Year 2009 Postal Service Financial Statements                       FT-AR-10-005
 Audit – Washington, D.C., Headquarters



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director,
Financial Reporting, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachment

cc: Joseph Corbett
    Julie S. Moore
    Stephen J. Nickerson
    Bill Harris




                                                       3
Fiscal Year 2009 Postal Service Financial Statements                           FT-AR-10-005
 Audit – Washington, D.C., Headquarters


                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

U.S. Postal Service Headquarters Finance establishes accounting policies and provides
guidelines for recording and reporting Postal Service financial transactions. Internal
control and reporting systems have been created to ensure management and the public
receive meaningful financial information in accordance with generally accepted
accounting principles. We conducted this audit in support of the IPA’s overall audit
opinion on the Postal Service’s financial statements. We will issue separate financial
statement audit reports for the Eagan, MN; San Mateo, CA; and St. Louis, MO,
Information Technology and Accounting Service Centers (IT/ASCs). Further, in addition
to the overall opinion on the Postal Service's financial statements, the IPA, contracted
by the Board of Governors to express an opinion on the financial statements, will issue
separate reports on the Postal Service's internal controls and compliance with laws and
regulations. The OIG will also issue a separate report for the audit of the FY 2009
information system controls at the Eagan, San Mateo, and St. Louis IT/ASCs; and the
Raleigh, NC, Information Technology Service Center.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of the audit were to determine whether:

   The financial accounting policies and procedures provide for an adequate internal
    control structure and comply with accounting principles generally accepted in the
    U.S.

   Accounting transactions at headquarters impacting the GL account balances for
    assets, liabilities, equity, income, and expenses of the Postal Service are fairly
    stated in accordance with accounting principles generally accepted in the U.S.

   GL account balances conform to the general classification of accounts of the Postal
    Service on a basis consistent with that of the previous year.

   The Postal Service complies with laws and regulations that have a material and
    direct effect on the financial statements as a whole.

To accomplish our objectives, we conducted fieldwork from January 2009 through
November 2009. We have a memorandum of understanding with the IPA regarding our
responsibilities for testing and reviewing internal controls and processes and significant
headquarters accounts (for example, cash, investments, workers compensation),




                                                       4
Fiscal Year 2009 Postal Service Financial Statements                                                    FT-AR-10-005
 Audit – Washington, D.C., Headquarters


manual JVs,3 and laws and regulations. Further, we verified the Board of Governors’
travel and miscellaneous expenses totaling $226,339 and external professional fees
totaling $58,245; and tested and accepted officers’ travel and representation expenses
totaling approximately $567,000. We issued a separate report for our audit of the FY
2009 Board of Governors’ travel and miscellaneous expenses4 and will issue a report
for our audit of the FY 2009 officers’ travel and representation expenses.

We conducted this audit from January 2009 through November 2009 in accordance with
the standards of the Public Company Accounting Oversight Board (United States)
(PCAOB) and the standards applicable to financial audits contained in Government
Auditing Standards issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to limit audit risk to a low level that is, in our professional judgment,
appropriate for supporting the overall audit opinion on the financial statements. Those
standards also require us to consider the results of previous engagements and follow up
on known significant findings and recommendations that directly relate to the objectives
of the audit. An audit also includes obtaining a sufficient understanding of internal
control to plan the audit and to determine the nature, timing, and extent of audit
procedures. We believe the evidence obtained provides a reasonable basis for our
conclusion based on our audit objectives.

We supported the IPA in obtaining reasonable assurance about whether the financial
statements are free of material misstatement (whether caused by error or fraud).
Absolute assurance is not attainable because of the nature of audit evidence and the
characteristics of fraud. Therefore, an audit conducted in accordance with PCAOB and
Government Auditing Standards may not detect a material misstatement. However, the
IPA and the OIG are responsible for ensuring that appropriate Postal Service officials
are aware of any significant deficiencies that come to our attention. We discussed our
observations and conclusions with management on November 23, 2009, and included
their comments where appropriate.

We relied on computer-generated data from several Postal Service financial systems,
including:

        eTravel.
        Chase Insight.
        Workers’ Compensation Master File.
        Accounting Data Mart.


3
  Statement on Auditing Standards (SAS) No. 99, Consideration of Fraud in a Financial Statement Audit, requires
auditors to perform certain tasks to address the risk of management override of internal control. To address such
situations, SAS No. 99 requires auditors to test the appropriateness of journal entries recorded in the GL and other
adjustments.
4
  Postal Service Board of Governors’ Travel and Miscellaneous Expenses for Fiscal Year 2009 (Report Number
FT-AR-10-002, dated November 5, 2009).




                                                          5
     Fiscal Year 2009 Postal Service Financial Statements                                             FT-AR-10-005
      Audit – Washington, D.C., Headquarters


     We performed specific internal control and transaction tests on these systems’ data to
     include tracing selected financial information to supporting source records. For
     example, we tested the reliability of the Workers' Compensation Master File by
     comparing the system’s data with a random sample of 60 case files.

     PRIOR AUDIT COVERAGE

                                               Final
                           Report             Report
   Report Title            Number              Date                          Report Results
Fiscal Year 2008        FT-AR-09-007         1/16/2009          We identified a control deficiency regarding
Postal Service                                                  manual JV processing. This item was not
Financial Statements                                            significant to the financial statements and did
Audit – Washington,                                             not affect the overall adequacy of internal
D.C., Headquarters                                              controls. We recommended management
                                                                develop formal written procedures for manual
                                                                JV processing and distribute to all applicable
                                                                personnel. Management developed formal
                                                                written procedures effective January 16,
                                                                2009, and the recommendation was closed.
Fiscal Year 2007        FT-AR-08-006          2/8/2008          We identified a control deficiency regarding
Postal Service                                                  manual JV processing. We recommended
Financial Statements                                            management reiterate JV internal control
Audit – Washington,                                             procedures to all applicable personnel, and
D.C., Headquarters                                              management planned to do so in January
                                                                2008. We followed up on the
                                                                recommendation as part of our FY 2008 audit
                                                                and closed the matter.
Fiscal Year 2006        FT-AR-07-004         12/7/2006          We did not report any findings or provide any
Postal Service                                                  recommendations.
Financial Statements
Audit – Washington,
D.C., Headquarters




                                                            6
